Hogan
Lovells

Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC
DC 20004
20004
Washington,
T +1 202 637
637 5600
5600
F +1 202 637 5910
www.hoganlovells.com

March 30, 2021
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Just Energy Marketing Corp., et al. v. Davina Hurt, Individually and on
All Others Similarly Situated, et al., No. 20-1093
Behalf of All

Dear Mr. Harris,
We represent respondents in the above-referenced matter. Respondents
received a 30-day extension of the time to file a response on February 24, 2021, and
a response is currently due on April 14, 2021. Respondents respectfully request a 14day extension of the time to file a response, to and including Wednesday, April 28,
2021. Petitioners do not oppose a 14-day extension.
The extension is warranted because of the press of other matters pending in
August 11, 2020 Wire
this Court and others, including a hearing in In re Citibank August
Transfers, No. 20-CV-6539-JMF (S.D.N.Y.) on April 9; a petition-stage reply in
Independent School District No. 283 v. EMDH, No. 20-905, due on April 14; and a
petition-stage reply in Gatewood v. Unites States, No. 20-1233, due on April 21.
Respectfully submitted,

/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel for Respondents

cc:

Paul D. Clement, Counsel of Record, Kirkland & Ellis LLP
Nicole T. Fiorelli, Dworken & Bernstein, Co., L.P.A.

Hogan Lovells US LLP is
is a
a limited
limited liability
liability partnership
partnership registered
registered in
in the
the District
District of
of Columbia.
Columbia. "Hogan
“Hogan Lovells"
Lovells” is
is an
an international
international legal
legal practice
practice that
that includes
includes Hogan
Hogan Lovells
Lovells US
US LLP
LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels
Brussels Colorado
Colorado Springs
Springs Denver
Denver Dubai
Dubai Dusseldorf
Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Frankfurt
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San
San Francisco
Francisco sao
São Paulo
Paulo Shanghai
Shanghai Silicon
Silicon Valley
Valley Singapore
Singapore
Sydney Tokyo
Tokyo Warsaw
Warsaw Washington
Washington DC
DC Associated
Associated offices:
offices: Budapest
Budapest Jakarta
Jakarta Shanghai
Shanghai FTZ
FTZ Ulaanbaatar
Ulaanbaatar Zagreb.
Zagreb. Business
Business Service
Service Centers:
Centers: Johannesburg
Johannesburg Louisville.
Louisville.
Sydney
For more information see www.hoganlovells.com

